Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   BENEFICIARIES REMAIN
VULNERABLE TO SALES AGENTS’
  MARKETING OF MEDICARE
     ADVANTAGE PLANS




                    Daniel R. Levinson
                     Inspector General

                       March 2010
                     OEI-05-09-00070
   E X E C U T I V E                    S U M M A R Y


                  OBJECTIVES
                  (1) To examine selected Medicare Advantage (MA) plan sponsors’
                      compensation of sales agents.

                  (2) To determine whether selected MA plan sponsors ensured that their
                      sales agents were qualified.

                  (3) To compare the number and topics of Medicare beneficiaries’
                      complaints about sales agent marketing before and after
                      implementation of sales agent marketing regulations.


                  BACKGROUND
                  The Centers for Medicare & Medicaid Services (CMS) contracts with
                  private companies, known as plan sponsors, to provide health insurance
                  plans under MA. Plan sponsors may market their MA plans through
                  independent sales agents, who may market on their own or through a
                  field marketing organization (FMO), or by employing their own sales
                  agents.

                  Between June 2007 and June 2008, Congress held three hearings
                  examining sales agents’ marketing of MA plans. During these hearings,
                  witnesses testified that sales agents had marketed without licenses,
                  portrayed themselves as Medicare employees, and misled Medicare
                  beneficiaries about plan benefits. These types of aggressive, deceptive,
                  and fraudulent marketing practices could result in Medicare
                  beneficiaries enrolling in plans that do not meet their health care needs.
                  Several members of Congress raised concerns about sales agents’
                  marketing to Medicare beneficiaries to the Office of Inspector General
                  (OIG); one specifically requested that OIG examine the marketing
                  practices of MA plans.

                  In July 2008, Congress enacted the Medicare Improvements for Patients
                  and Providers Act of 2008 (MIPPA), which prohibited or limited certain
                  marketing activities by sales agents and plan sponsors. In
                  September 2008, CMS published regulations implementing the MIPPA’s
                  marketing provisions, including limiting sales agent compensation to
                  independent sales agents. In addition, CMS regulations required that
                  all sales agents be trained and tested annually and be State licensed.

                  To examine selected MA plan sponsors’ compensation of sales agents
                  and determine whether the selected plan sponsors ensured that their


OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                  PLANS                                                                                                   i
E X E C U T I V E               S U     M M A R Y


                   sales agents were qualified, we reviewed compensation, testing, and
                   licensure data for a random sample of sales agents. We purposively
                   selected the plan sponsors based on their size and the rate of marketing
                   complaints they received. We also compared complaints regarding sales
                   agent marketing reported to CMS from 2008 and 2009 to determine
                   whether the number and topics of Medicare beneficiaries’ complaints
                   changed after implementation of the sales agent marketing regulations.


                   FINDINGS
                   All five plan sponsors using independent sales agents had
                   compensation practices that resulted in inappropriate financial
                   incentives. Five selected plan sponsors’ compensation practices may
                   have led sales agents to enroll Medicare beneficiaries in MA plans that
                   did not best meet Medicare beneficiaries’ health care needs. Three of the
                   five selected plan sponsors that used independent sales agents made
                   payments to sales agents in excess of their CMS-approved compensation
                   schedules. In addition, three of the five selected plan sponsors made
                   payments to FMOs that may have created inappropriate financial
                   incentives to market their MA plans. One plan sponsor did both.
                   Five of the six selected plan sponsors did not ensure that all sales
                   agents were qualified under CMS’s regulations. Five of the
                   six selected plan sponsors used unqualified sales agents who either had
                   not passed the marketing test for 2009 or were not licensed at the time
                   they took Medicare beneficiaries’ enrollment applications. In our
                   random sample of 30 sales agents per plan sponsor, there were
                   12 unqualified sales agents, the majority of whom had not passed the
                   marketing test for 2009. Despite a requirement that MA plans have
                   systems in place to confirm that enrolled Medicare beneficiaries are
                   aware of their enrollment in the plans and that the Medicare
                   beneficiaries understand the plans’ rules, no plan sponsor had a policy
                   to contact Medicare beneficiaries enrolled by an unqualified sales agent
                   to ensure that they knew of their enrollment or understood the plans’
                   rules.
                   The number and topics of sales agent marketing complaints
                   remained unchanged after implementation of sales agent marketing
                   regulations. About 13,000 sales agent marketing complaints were
                   reported to CMS during each of the 2008 and 2009 annual enrollment
                   periods. For both years’ annual enrollment periods, these complaints
                   represented less than 10 percent of all complaints reported to CMS. For

 OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                   PLANS                                                                                                   ii
E X E C U T I V E               S U     M M A R Y


                   both years, sales agent marketing complaints referenced one or more of
                   the same three broad topics: (1) providing misleading information about
                   plan benefits, (2) enrolling Medicare beneficiaries without their consent,
                   and (3) engaging in aggressive sales tactics.


                   RECOMMENDATIONS
                   Each of the six selected plan sponsors did not follow at least one of the
                   marketing regulations concerning sales agent compensation and
                   qualifications. Any such instances represent gaps in plan sponsors’
                   oversight and implementation of the sales agent marketing regulations.
                   In addition, results from CMS’s oversight of plan sponsor marketing
                   activities after implementation of the sales agent marketing regulations
                   indicate that compliance concerns are not limited to the six selected
                   plan sponsors. Therefore, we recommend that CMS:
                      take appropriate actions regarding the specific instances of
                       noncompliance documented in this report,
                      audit plan sponsors and include an assessment of the
                       vulnerabilities identified in this report,
                      issue additional regulations concerning FMO payments,
                      issue regulations requiring plan sponsors to contact all new
                       enrollees to ensure that they understand plan rules, and
                      issue guidance clarifying that plan sponsors should terminate
                       unlicensed sales agents immediately upon discovery.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our first recommendation. CMS concurred in part
                   with our second recommendation, stating that it would conduct audits
                   or other oversight activities of plan sponsors posing the greatest risk to
                   Medicare beneficiaries. As such, we have amended the wording of the
                   recommendation. CMS did not concur with our final three
                   recommendations. We continue to recommend that CMS issue
                   additional regulations and guidance to protect Medicare beneficiaries
                   from inappropriate sales agent marketing. However, we have modified
                   the wording of two of the recommendations to reflect alternative
                   approaches that are consistent with CMS’s comments.


 OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                   PLANS                                                                                                   iii
   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                    All five plan sponsors using independent sales agents had
                    compensation practices that resulted in inappropriate financial
                    incentives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                    Five of the six selected plan sponsors did not ensure that all
                    sales agents were qualified under CMS’s regulations . . . . . . . . . . 17

                    The number and topics of sales agent marketing complaints
                    remained unchanged after implementation of sales agent
                    marketing regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
                    Agency Comments and Office of Inspector General Response . . . 24


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
                    A: Medicare Improvements for Patients and Providers Act of
                       2008 Provisions Concerning Sales Agents . . . . . . . . . . . . . . . . 27

                    B: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

                    C: Estimates and Confidence Intervals for Samples From the
                       Centers for Medicare & Medicaid Services’ Complaint
                       Tracking Module . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38
   I N T R O D U C T I O N


                  OBJECTIVES
                  (1) To examine selected Medicare Advantage (MA) plan sponsors’
                      compensation of sales agents.

                  (2) To determine whether selected MA plan sponsors ensured that their
                      sales agents were qualified.

                  (3) To compare the number and topics of Medicare beneficiaries’
                      complaints about sales agent marketing before and after
                      implementation of sales agent marketing regulations.


                  BACKGROUND
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 (MMA) replaced the Medicare + Choice program with the MA
                  program and made qualified prescription drug coverage available to
                  Medicare beneficiaries. 1, 2 The Centers for Medicare & Medicaid
                  Services (CMS) contracts with private companies, known as plan
                  sponsors, to provide health insurance plans under MA. Plan sponsors
                  may offer multiple MA plans.

                  Between January 2008 and September 2009, enrollment in MA plans
                  increased from 9.2 million Medicare beneficiaries to over 11.2 million, or
                  nearly a quarter of the more than 45 million Medicare beneficiaries. 3
                  For each Medicare beneficiary enrolled in MA in 2009, the Medicare
                  Payment Advisory Committee (MedPAC) projected that Medicare pays




                    1 MMA, P.L. 108-173 § 201, 42 U.S.C. § 1395w-21 note.
                    2 MMA, P.L. 108-173 §101, Social Security Act, § 1860D-1 et seq., 42 U.S.C. § 1395w-101
                  et seq.
                    3 CMS,  Medicare Advantage, Cost, PACE, Demo, and Prescription Drug Plan Contract
                  Report - Monthly Summary Report (Data as of January 2008). Available online at
                  http://www.cms.hhs.gov/MCRAdvPArtDEnrolData/Downloads/Contract Summary -
                  January 2008.zip. Accessed on October 16, 2009. CMS, Medicare Advantage, Cost, PACE,
                  Demo, and Prescription Drug Plan Contract Report - Monthly Summary Report (Data as of
                  September 2009). Available online at
                  http://www.cms.hhs.gov/MCRAdvPArtDEnrolData/Downloads/Contract Summary -
                  September 2009.zip. Accessed on October 16, 2009. CMS, Medicare Enrollment: National
                  Trends 1966 – 2008. Available online at
                  http://www.cms.hhs.gov/MedicareEnRpts/Downloads/HISMI08.pdf. Accessed on
                  September 24, 2009.



OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                  PLANS                                                                                                   1
I N T R O D        U C T      I O N


                    MA plan sponsors 14 percent more than if a Medicare beneficiary
                    remains in fee-for-service Medicare. 4
                    Medicare beneficiary complaints about MA plan marketing raised
                    concerns in Congress and with CMS. Between June 2007 and June
                    2008, Congress held three hearings examining MA plan marketing in
                    response to complaints of aggressive, deceptive, and fraudulent
                    marketing practices reported by Medicare beneficiaries and consumer
                    advocates. During these hearings, witnesses testified that sales agents
                    had marketed without licenses, portrayed themselves as Medicare
                    employees, and misled Medicare beneficiaries about plan benefits. 5
                    After discussions with CMS, in June 2007, seven MA plan sponsors
                    agreed to suspend their marketing of specific MA plan types that were
                    the subject of many complaints.

                    Protecting Medicare beneficiaries from inappropriate sales agent
                    marketing practices is critical to ensuring that Medicare beneficiaries
                    enroll in plans that meet their health care needs. In 2008, several
                    members of Congress raised concerns about sales agents marketing to
                    Medicare beneficiaries to the Office of Inspector General (OIG). This
                    study is in response to a request from Congressman Fortney “Pete”
                    Stark that OIG examine the marketing practices of MA plans.
                    Marketing MA Plans To Enroll Medicare Beneficiaries
                    Plan sponsors market through advertisements and sales agents to
                    attract Medicare beneficiaries to enroll in their plans. CMS allowed
                    plan sponsors to begin marketing activities on October 1, 2008, for the
                    2009 plan year. 6 A plan year begins January 1 and ends December 31.
                    Medicare beneficiaries may choose to enroll in MA when they are first
                    eligible for Medicare and then annually thereafter between
                    November 15 and March 31 (hereinafter referred to as the annual




                      4 MedPAC,   A Data Book: Healthcare Spending and the Medicare Program, June 2009,
                    p. 155. Available online at http://www.medpac.gov/chapters/Jun09DataBookSec10.pdf.
                    Accessed on September 30, 2009.
                      5 42 U.S.C. § 1320b-10.
                      6 CMS, 2009 Call Letter, March 17, 2008, p. 7. Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/CallLetter.pdf. Accessed
                    on April 1, 2009.



 OEI-05-09-00070    BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                    PLANS                                                                                                   2
I N T R O D        U C T      I O N


                    enrollment periods). 7 Aside from their initial eligibility and the annual
                    enrollment periods, most Medicare beneficiaries may not change plans
                    and must remain enrolled in their chosen plans throughout the plan
                    year. 8
                    Marketing MA Plans Through Sales Agents
                    Plan sponsors may contract with independent sales agents or employ
                    sales agents to market their plans to Medicare beneficiaries.
                    Independent sales agents may contract with one or more plan sponsors.

                    Independent sales agents may market MA plans on their own or as
                    employees of field marketing organizations (FMO). When sales agents
                    market MA plans as FMO employees, FMOs typically provide sales
                    agents with enrollment leads and marketing assistance. Plan sponsors
                    pay sales agents directly or through an FMO.
                    Laws and Regulations Governing Sales Agent Marketing of MA Plans
                    In July 2008, Congress enacted the Medicare Improvements for Patients
                    and Providers Act of 2008 (MIPPA). 9 In the MIPPA, Congress
                    prohibited or limited certain sales and marketing activities by sales
                    agents and plan sponsors. For instance, the MIPPA required CMS to
                    issue guidance limiting sales agent compensation and requiring sales
                    agents to be trained and tested annually and be State licensed. 10
                    More than half of the limitations on sales agent and plan sponsor
                    activities codified in the MIPPA had been previously released as
                    guidance in 2006. For example, in previous guidance, CMS directed




                      7 Technically, there are two separate enrollment periods with slightly different rules.
                    From November 15 to December 31, Medicare beneficiaries may enroll in, or disenroll from,
                    MA plans as often as they like. From January 1 to March 31, Medicare beneficiaries may
                    enroll in, or disenroll from, MA plans only once. CMS, Medicare Managed Care Manual
                    (MMCM), Pub. 100-16, ch. 2, §§ 30.1, 30.3. Available online at
                    http://www.cms.hhs.gov/MedicareMangCareEligEnrol/Downloads/2009MAenrollmentguida
                    nce.pdf. Accessed on February 18, 2009.
                      8 MMCM, ch. 2, § 30. CMS allows certain Medicare beneficiaries more flexibility to
                    change plans. Medicare beneficiaries eligible for Medicaid may enroll in or switch MA plans
                    at any time. In addition, CMS provides special enrollment periods for Medicare
                    beneficiaries whose plans terminate, who change residence, or who meet exceptional
                    conditions.
                      9 MIPPA, P.L. 110-275.
                      10 MIPPA, §§ 103(b)(1) and (d)(1), Social Security Act, §§ 1851(j) and (h), 42 U.S.C.
                    §§ 1395w-21(j) and 1395w-21(h).



 OEI-05-09-00070    BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                    PLANS                                                                                                   3
I N T R O D        U C T         I O N


                    plan sponsors to reasonably compensate sales agents in line with
                    industry standards and to use State-licensed sales agents. 11
                    CMS published regulations implementing the MIPPA’s sales agent
                    marketing provisions on September 18, 2008, 2 months before the
                    annual enrollment periods for the 2009 plan year began. 12 Appendix A
                    lists the sales agent marketing provisions in the MIPPA and associated
                    CMS guidance for implementing the MIPPA's provisions and indicates
                    whether CMS addressed the provisions in its previous 2006 guidance.

                    Sales agent compensation. In September and November 2008, CMS
                    issued regulations implementing the MIPPA provision concerning sales
                    agent compensation. 13 These regulations are intended to ensure that
                    sales agents enroll Medicare beneficiaries “based on the plan that best
                    meets their health care needs.” 14 They govern compensation of
                    independent sales agents, including those employed by FMOs. These
                    regulations do not cover sales agents that are plan sponsor employees. 15
                    CMS defines compensation as the monetary or nonmonetary payment
                    for the sale or renewal of a plan policy (i.e., the initial enrollment of a
                    Medicare beneficiary into an MA plan or the renewal of a Medicare
                    beneficiary’s enrollment), including but not limited to commissions,
                    bonuses, gifts, prizes, awards, and finders’ fees. In its definition of
                    compensation, CMS does not include fees for complying with State laws;
                    training, certification, and testing costs; or reimbursement for mileage
                    and actual costs associated with sales appointments. 16 Thus, plan
                    sponsors may pay for these items in addition to any compensation for
                    the sale or renewal of a plan policy.

                    CMS requires a 6-year compensation cycle for sales agents, whether
                    paid by a plan sponsor directly or through FMOs, consisting of two types
                    of compensation: initial-year compensation and renewal-year

                      11 CMS, Medicare Marketing Guidelines for: Medicare Advantage Plans, Medicare
                    Advantage Prescription Drug Plans, Prescription Drug Plans, and 1876 Cost Plans,
                    pp. 128–138 (2nd revision, July 25, 2006). Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/FinalMarketingGuidelines.
                    pdf. Accessed on June 26, 2009.
                      12 73 Fed. Reg. 54208 and 54226 (Sept. 18, 2008).
                      13 73 Fed. Reg. 54226 (Sept. 18, 2008); 73 Fed. Reg. 67406 (Nov. 14, 2008).
                      14 73 Fed. Reg. 54226, 54237 (Sept. 18, 2008); 73 Fed. Reg. 67406, 67407 (Nov. 14, 2008).
                      15 42 CFR § 422.2274 (as of Nov. 14, 2008). All subsequent citations in this report to
                    42 CFR pt. 422 are to the regulation as amended in September and November 2008.
                      16 Ibid.




 OEI-05-09-00070    BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                    PLANS                                                                                                   4
I N T R O D        U C T      I O N


                    compensation. Plan sponsors must pay sales agents an initial-year
                    compensation rate for a Medicare beneficiary’s initial year of enrollment
                    into an MA plan. Plan sponsors must pay sales agents a renewal-year
                    compensation rate, equal to 50 percent of the initial-year compensation
                    rate, each year for 5 years after a Medicare beneficiary’s initial year of
                    enrollment so long as the Medicare beneficiary remains enrolled. 17
                    For 2009, CMS required plan sponsors to submit compensation
                    schedules for sales agents and FMOs. 18 This submission included plan
                    sponsor’s compensation schedules for sales agents and FMOs from the
                    past 3 years and their proposed schedule for the 2009 plan year. 19
                    CMS used the compensation schedules to determine market rate limits
                    for sales agents. For 2009, CMS set the market rate limit for
                    initial-year compensation at $400, with exceptions for certain States. 20
                    Accordingly, for 2009 the maximum renewal-year rate for most States is
                    $200. CMS required plan sponsors to resubmit their sales agent
                    compensation schedules for approval if they were out of compliance with
                    the market rate limit.

                    CMS stated that administrative difficulties with the enrollment process
                    would prevent CMS from distinguishing between initial- and
                    renewal-year enrollments at the time of enrollment. 21 Thus, for 2009,
                    CMS instructed plan sponsors to pay sales agents the renewal-year
                    compensation rates until CMS notified them that enrollments were
                    eligible for initial-year compensation. 22 CMS did permit plan sponsors
                    to pay initial-year compensation for individuals newly eligible for
                    Medicare. 23



                      17 42 CFR § 422.2274(a)(1).
                      18 73 Fed. Reg. 67406, 67410 (Nov. 14, 2008).
                      19 Ibid.; CMS, Release of Centers for Medicare& Medicaid Services 4138-IFC2 and
                    Clarification of guidance on agent/broker compensation, November 10, 2008.
                      20 CMS, January 16, 2009 replacement of the December 24, 2008 memo: 2009 Medicare
                    Advantage and Prescription Drug Program Agent and Broker Compensation Structures
                    (January 2009 Replacement Memorandum), January 16, 2009. Available online at
                    http://www.cms.hhs.gov/ManagedCareMarketing/Downloads/CompStructureRepMemo_
                    011609.pdf. Accessed on June 30, 2009. For Connecticut, Pennsylvania, and the District of
                    Columbia, the initial-year compensation rate could be as high as $450 for MA plans. For
                    California and New Jersey, the initial-year compensation rate could be as high as $500.
                      21 73 Fed. Reg. 67406, 67408 (Nov. 14, 2008).
                      22 Ibid.; 42 CFR § 422.2274(a)(1)(iii).
                      23 42 CFR § 422.2274(a)(1)(iii).




 OEI-05-09-00070    BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                    PLANS                                                                                                   5
I N T R O D        U C T      I O N


                    Beginning in May 2009, CMS identified enrollments for which sales
                    agents should have been paid the initial-year compensation rate. CMS
                    requires plan sponsors to retroactively adjust sales agent compensation
                    to the initial-year compensation rate if CMS identifies the beneficiary as
                    new to MA or newly eligible for Medicare in 2009. 24
                    The regulations also address payments to FMOs for ancillary services,
                    such as training, material development, customer service, direct mail,
                    and agent recruitment. CMS did not establish limits for such payments.
                    Rather, the regulations state that plan sponsors must pay FMOs for
                    services at fair-market value and each plan sponsor’s payment must not
                    exceed an amount commensurate with what that plan sponsor paid
                    FMOs in each of the prior 2 years. 25 The regulations also do not state
                    that plan sponsors must pay FMOs for ancillary services using a 6-year
                    compensation cycle.

                    Sales agent qualifications. In September 2008, CMS also issued
                    regulations implementing the MIPPA provisions requiring plan
                    sponsors to ensure that sales agents meet certain qualifications. 26
                    First, plan sponsors must ensure that all sales agents are trained and
                    that they pass an annual written or electronic test on Medicare
                    (hereinafter referred to as the marketing test) with a score of 85 percent
                    or better. 27, 28 CMS does not specify the content of the training or the
                    test or the number of times a sales agent may attempt the test.
                    Training and testing may be provided in person or online.

                    Second, plan sponsors must use only State-licensed sales agents to
                    market their plans. 29, 30 The process for attaining licensure is
                    determined by each State. State licenses may be valid for as little as
                    1 year or may not expire at all.


                      24 42 CFR § 422.2274(a)(1)(iii).
                      25 42 CFR § 422.2274(a)(1)(iv).
                      26 73 Fed. Reg. 54208 and 54226 (Sept. 18, 2008).
                      27 42 CFR §§ 422.2274(b) and (c).
                      28 CMS,   Guidance for regulations in CMS 4131-F and CMS 4138-IFC, September 15,
                    2008, p. 23. Available online at
                    http://www.cms.hhs.gov/ManagedCareMarketing/Downloads/MIPPA_Imp_memo091208Fin
                    al.pdf. Accessed on September 9, 2009.
                      29 42 CFR § 422.2272(c).
                      30 California does not require sales agents who market Health Maintenance
                    Organization (HMO) plans to be licensed. Knox-Keene Health Care Service Plan Act of
                    1975, Cal Health & Saf Code § 1359.



 OEI-05-09-00070    BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                    PLANS                                                                                                   6
I N T R O D        U C T      I O N


                    Plan sponsor reporting of terminated sales agents. CMS regulations also
                    require plan sponsors to report the termination of licensed sales agents
                    to the applicable State. 31 If State laws require, plan sponsors must also
                    include the reasons for sales agent terminations. In addition, plan
                    sponsors must make their reports of sales agent terminations available
                    to CMS upon request. 32 However, CMS regulations and guidance do not
                    specify circumstances under which plan sponsors should terminate sales
                    agents.
                    CMS and Plan Sponsor Oversight of Sales Agent Marketing
                    In September 2008, CMS announced an oversight strategy to ensure
                    that plan sponsors comply with sales agent marketing regulations. 33
                    CMS staff stated that they visited more than 1,500 marketing events
                    unannounced and reviewed 1,300 advertisements during the
                    2009 annual enrollment periods. CMS staff noted that they expanded
                    oversight activities to include monitoring of sales agents in
                    one-on-one settings. In addition, in the summer of 2009, CMS staff
                    audited one plan sponsor to ensure compliance with the sales agent
                    marketing regulations. CMS staff indicated that they plan to conduct
                    more compliance audits in the future.

                    As part of CMS’s oversight strategy, CMS staff also assessed complaints
                    reported to the 1-800-MEDICARE hotline or Medicare Drug Integrity
                    Contractors (MEDIC). 34 CMS registers complaints reported to either
                    source in its Complaint Tracking Module. CMS assigns each complaint
                    to one of several categories. One category, “marketing,” is for
                    complaints about plan sponsor marketing. Within the “marketing”
                    category, CMS includes a “marketing misrepresentation” subcategory.
                    For the 2009 annual enrollment periods, CMS staff stated that hotline
                    employees were instructed to place all sales agent marketing complaints
                    in the “marketing misrepresentation” subcategory.

                      31 42 CFR § 422.2272(d).
                      32 CMS, Medicare Marketing  Guidelines for: Medicare Advantage Plans, Medicare
                    Advantage Prescription Drug Plans, Prescription Drug Plans, and 1876 Cost Plans, p. 141.
                    Available online at
                    http://www.cms.hhs.gov/ManagedCareMarketing/Downloads/R91MCM.pdf. Accessed on
                    January 5, 2010.
                      33 CMS,   Final Marketing Provisions and CMS Marketing Surveillance, September 26,
                    2008.
                      34 MEDICs are responsible for managing reports about fraud, waste, and abuse in the
                    prescription drug program and working with CMS, plan sponsors, and others to protect
                    Medicare beneficiaries.



 OEI-05-09-00070    BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                    PLANS                                                                                                   7
I N T R O D        U C T      I O N


                    Because of its oversight activities, CMS sent warning letters to 92 plan
                    sponsors regarding 1 or more of the following issues: (1) a high number
                    of sales agent marketing complaints, (2) noncompliance with a sales
                    agent marketing regulation detected at marketing events or through
                    advertisement reviews, (3) deficiencies in plan sponsors’ implementation
                    of the sales agent marketing regulations, or (4) poor customer service.
                    Of the 92 warning letters, 84 referenced 1 or more of the first 3 issues
                    related to marketing.

                    Plan sponsors must also monitor compliance with sales agent marketing
                    regulations. Specifically, CMS requires plan sponsors to monitor sales
                    agents to ensure that they comply with all applicable laws, CMS
                    policies, and marketing guidelines. 35 In addition, CMS requires that
                    plan sponsors have a meaningful procedure for receiving and resolving
                    complaints reported to plans. 36
                    State Departments of Insurance Oversight of Sales Agents
                    State Departments of Insurance oversee and license sales agents
                    employed in their States. Like CMS, the Departments of Insurance
                    receive complaints from Medicare beneficiaries and use them to oversee
                    and discipline sales agents whose actions violate State laws or
                    regulations.

                    CMS has signed Memorandums of Understanding with all Departments
                    of Insurance to allow the exchange of complaint data involving sales
                    agents and plan sponsors. In addition, CMS holds quarterly
                    teleconferences with all State Departments of Insurance to exchange
                    information about sales agent and plan sponsor marketing.
                    Related Office of Inspector General Work
                    In 2006, OIG published a report assessing CMS oversight of MA
                    marketing materials. OIG found that some MA marketing materials
                    lacked CMS-required information essential for Medicare beneficiaries to
                    make informed choices. For instance, plan sponsors’ advertisements did
                    not include operating hours for their customer service numbers, did not
                    state that the 1-800-MEDICARE line is available 24 hours a day and
                    7 days a week, or did not clearly identify resources for Medicare




                      35 CMS, “Marketing Guidelines,” p. 130.
                      36 42 CFR § 422.564.




 OEI-05-09-00070    BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                    PLANS                                                                                                   8
I N T R O D        U C T      I O N


                    beneficiaries with special needs. Furthermore, some marketing
                    materials used unclear and technical language. 37


                    METHODOLOGY
                    To examine selected MA plan sponsors’ compensation of sales agents
                    and determine whether the selected plan sponsors ensured that their
                    sales agents were qualified, we reviewed compensation, testing, and
                    licensure data for a random sample of sales agents. We also compared
                    complaints regarding sales agent marketing reported to CMS from
                    2008 and 2009 to determine whether the number and topics of Medicare
                    beneficiaries’ complaints changed after implementation of the sales
                    agent marketing regulations. See Appendix B for a more detailed
                    description of our methodology.
                    Scope
                    We reviewed plan sponsors offering MA plans. We did not review plan
                    sponsors that offered only prescription drug plans and no MA plans.
                    According to CMS staff, plan sponsors offering only prescription drug
                    plans account for a small number of sales agent marketing complaints.

                    This study is designed to identify whether selected plan sponsors have
                    problems associated with the compensation or qualifications of their
                    sales agents. It does not project the extent of any problems for MA plan
                    sponsors. Because of the intensity of the review, we focused our
                    analysis on a purposive sample of six plan sponsors that used sales
                    agents to market to Medicare beneficiaries.

                    We limited our analysis of plan sponsors to 3 of the marketing
                    provisions in the MIPPA: (1) compensation of sales agents, (2) annual
                    training and testing of sales agents, and (3) use of State-licensed sales
                    agents. These three marketing provisions are critical to protecting
                    Medicare beneficiaries because they address sales agents’ financial
                    motivation and their qualifications to market MA plans. See
                    Appendix A for a complete list of the marketing provisions in the
                    MIPPA.

                    In addition, we limited our analysis of plan sponsors’ compliance with
                    sales agent marketing regulations to dates between October 1, 2008,


                      37 OIG, Medicare Advantage Marketing Materials for Calendar Year 2005,
                    OEI-01-05-00130, August 2006.



 OEI-05-09-00070    BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                    PLANS                                                                                                   9
I N T R O D        U C T      I O N


                    when marketing began for the 2009 annual enrollment periods, and
                    March 31, 2009, the end of the 2009 annual enrollment periods. Most
                    Medicare beneficiary enrollment occurs during this timeframe. 38
                    Finally, we did not determine whether plan sponsors' payments
                    complied with the Federal antikickback statute. 39 A legal analysis of
                    whether plan sponsor payments violated the Federal antikickback
                    statute was beyond the scope of this study.
                    Examining Sales Agents’ Compensation and Qualifications
                    To examine sales agents’ compensation and qualifications, we collected
                    data from 6 of the 266 plan sponsors offering MA plans in 2009. From
                    three strata of plan sponsors, we purposively selected six plan sponsors
                    with the highest rate of marketing complaints per enrolled Medicare
                    beneficiary. We selected one plan sponsor from a stratum of plan
                    sponsors with small enrollment, two from a stratum with medium
                    enrollment, and three from a stratum with large enrollment. These six
                    plan sponsors represented approximately 7 percent of MA enrollment at
                    the time of our review. They are geographically dispersed and three of
                    the six plan sponsors offered their plans nationally.

                    Within each plan sponsor, we randomly sampled 30 sales agents. We do
                    not project our findings to all sales agents from the six plan sponsors or
                    to the universe of MA plan sponsors.

                    We conducted site visits at each of the selected plan sponsors during
                    April 2009. During each site visit, we conducted structured interviews
                    of plan sponsor representatives and collected data on the random
                    sample of 30 sales agents. For each sampled sales agent, we collected
                    all enrollment applications, compensation, and testing data. While
                    onsite, we verified the accuracy and completeness of these data.

                    We determined whether five of the six selected MA plan sponsors followed
                    CMS’s compensation regulations regarding sales agent compensation. We
                    dropped one plan sponsor from this analysis because it did not use
                    independent sales agents. Only independent sales agents are subject to
                    the compensation regulations. For each of the 5 plan sponsors, we
                    compared the payments made to each of the 30 sampled sales agents to the
                    plan sponsors’ CMS-approved compensation schedules.


                      38 MMCM, ch. 2, § 30.
                      39 42 U.S.C § 1320a-7b.




 OEI-05-09-00070    BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                    PLANS                                                                                                   10
I N T R O D        U C T      I O N


                    We also compared payments made to FMOs on a per enrollment basis to
                    each of the plans sponsor’s CMS-approved compensation schedule. For
                    this analysis, we did not determine whether these payments comply with
                    CMS regulations. In particular, we did not determine whether FMO
                    payments were fair-market value or whether payments exceeded the
                    amounts that plan sponsors paid FMOs for similar services in the previous
                    2 years.
                    We determined whether selected plan sponsors ensured that their sales
                    agents were qualified by checking whether sales agents were
                    appropriately trained and licensed at the time they enrolled Medicare
                    beneficiaries. To determine whether their sales agents for the
                    6 selected plan sponsors were trained, we reviewed the date on which
                    each of the 30 sampled sales agents passed the marketing test. For
                    each sampled sales agent, we compared the date the sales agent passed
                    the marketing test to the Medicare beneficiary’s signature date on each
                    enrollment application submitted by that sales agent.

                    We determined whether 5 the 6 selected plan sponsors used licensed
                    sales agents by checking whether each plan sponsor’s 30 sampled sales
                    agents had licenses in the States at the time they generated enrollment
                    applications. We dropped one plan sponsor from this analysis because it
                    operated as an HMO in California and California does not license sales
                    agents to market HMOs. For the five selected plan sponsors, we
                    compared the Medicare beneficiaries’ signature dates to the licensure
                    dates for all sales agents available on State Department of Insurance
                    Web sites or through the National Insurance Producer Registry
                    database. 40
                    Medicare Beneficiary Complaints Regarding Sales Agent Marketing
                    Number of sales agent marketing complaints. To determine the number of
                    sales agent marketing complaints reported to CMS, we selected
                    2 stratified random samples of 400 complaint records from the Complaint
                    Tracking Module from October 1, 2007, to April 30, 2008, and from
                    October 1, 2008, to April 30, 2009. We chose these periods because they
                    capture complaints from when plan sponsors may begin marketing for the
                    plan year to 1 month after the end of the annual enrollment periods. We


                      40 Two States’ licensure information is not available on their Department of Insurance
                    Web sites. For these States, we used the National Insurance Producer Registry, a private
                    compilation of current licensure information.



 OEI-05-09-00070    BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                    PLANS                                                                                                   11
I N T R O D        U C T      I O N


                    stratified the complaint records by those that are categorized as
                    “marketing misrepresentation” and those that are not. We selected
                    100 complaint records from the “marketing misrepresentation” stratum
                    and 300 complaint records from the other stratum for each period in case
                    some sales agent marketing complaints were placed under an incorrect
                    category.

                    We manually reviewed all sampled Complaint Tracking Module
                    complaint records. We used each complaint’s categorization and
                    description to determine whether the complaint concerned sales agent
                    marketing. We projected the number of sales agent marketing
                    complaints to the total number of complaints for the 2008 and
                    2009 annual enrollment periods. See Appendix C for a list of 95-percent
                    confidence intervals for all statistical projections.

                    Topics of sales agent marketing complaints. To determine the nature of
                    complaints in the Complaint Tracking Module, we analyzed sales agent
                    marketing complaints from the “marketing misrepresentation” stratum
                    only. The proportion of sales agent marketing complaints we found in
                    the “marketing misrepresentation” stratum is large enough to make
                    valid projections between periods. We then compared the proportion of
                    complaints by type between the 2008 and 2009 annual enrollment
                    periods.

                    To determine the nature of sales agent marketing complaints reported
                    to other sources during the 2009 annual enrollment periods, we
                    collected data from the Departments of Insurance, MEDICs, and the
                    six selected plan sponsors. From the Departments of Insurance, we
                    requested the types of complaints they received. From the MEDICs and
                    the six selected plan sponsors, we requested actual complaints. We
                    compared the Complaint Tracking Module complaints to those collected
                    from other sources.
                    Data Limitations
                    We were unable to verify the accuracy and completeness of some
                    compensation data from one plan sponsor. While we were able to assess
                    the accuracy and completeness of payments to the sampled sales agents
                    for that plan sponsor, we were not able to verify the completeness and
                    accuracy of other payments, such as finders’ fees. Because this plan
                    sponsor’s payments to sales agents were accurate and complete and
                    because none of the other plan sponsors provided inaccurate
                    compensation data, we included these unverified data in our analysis.


 OEI-05-09-00070    BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                    PLANS                                                                                                   12
I N T R O D        U C T      I O N


                    The number of sales agents we report as unqualified under CMS
                    regulations and the number of enrollment applications they generated
                    are conservative. Representatives from some selected plan sponsors
                    stated that they were unable to find a small number of enrollment
                    applications associated with our sampled sales agents. These
                    enrollment applications could have had problems; however, we could not
                    determine this because they were missing.

                    We use the number of sales agent marketing complaints reported to
                    CMS as a way to identify potential concerns with sales agent marketing
                    tactics. However, some of these complaints may have been unjustified,
                    resulting in a potential overstatement of concerns with sales agent
                    marketing tactics.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of Inspectors General on Integrity
                    and Efficiency.




 OEI-05-09-00070    BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                    PLANS                                                                                                   13
         F I N D I N G S

  All five plan sponsors using independent sales             All five of the plan sponsors using
agents had compensation practices that resulted              independent sales agents had
              in inappropriate financial incentives          compensation practices that
                                                             resulted in inappropriate financial
                        incentives for sales agents or may have created inappropriate financial
                        incentives for FMOs to market their MA plans. The plan sponsor that
                        did not use independent sales agents is not included in this analysis of
                        compensation practices because only independent sales agents are
                        governed by CMS compensation regulations.
                        Three of five selected plan sponsors using independent sales agents
                        made payments to sales agents in excess of their CMS-approved
                        compensation schedules. In addition, three selected plan sponsors made
                        payments to FMOs that may have created inappropriate financial
                        incentives to market their MA plans. One plan sponsor did both.

                        Inappropriate financial incentives for sales agents and FMOs may affect
                        Medicare beneficiary enrollment. Sales agents and FMOs may
                        encourage Medicare beneficiaries to enroll in MA plans that pay more
                        than other MA plans without regard to whether those MA plans best
                        meet Medicare beneficiaries’ health care needs. Once enrolled,
                        Medicare beneficiaries have limited opportunities to switch MA plans
                        before the next annual enrollment periods begin.
                        Three of the selected plan sponsors made payments in excess of their
                        CMS-approved compensation schedules, resulting in inappropriate financial
                        incentives
                        Payment of administrative fees in excess of compensation rate. One
                        selected plan sponsor paid in excess of its CMS-approved compensation
                        schedule by paying additional flat administrative fees to sales agents in
                        our sample. For each enrollment, this plan sponsor paid flat
                        administrative fees of $50 to sales agents. These payments were in
                        addition to its CMS-approved compensation payments. Including the
                        flat administrative fees, a sales agent’s compensation would total
                        $250 per enrollee, exceeding the plan sponsor’s renewal year
                        compensation rate of $200.

                        CMS allows plan sponsors to pay fees, in addition to CMS-approved
                        compensation, if these fees are for actual costs related to sales
                        appointments. However, the plan sponsors’ flat administrative fees do
                        not appear to reflect payments for actual costs because these payments
                        never varied; the plan sponsor always paid sales agents $50. In
                        addition, the plan sponsor stated that these fees were payments for
      OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                        PLANS                                                                                                   14
F   I N D I N G        S


                      costs related to enrollments rather than costs related to sales
                      appointments.

                      Since implementing its practice of paying additional flat administrative
                      fees, this plan sponsor experienced enrollment growth that exceeded
                      overall MA enrollment growth throughout its region. Between
                      November 1, 2008, and June 1, 2009, this plan sponsor’s enrollment
                      increased nearly 47 percent. During the same period for the same
                      region, MA enrollment grew by 8 percent, excluding this plan sponsor’s
                      enrollment.

                      Payments of excessive compensation rates. One selected plan sponsor
                      paid sampled sales agents in excess of its CMS-approved compensation
                      schedule by paying the initial-year compensation rate, which is twice
                      the renewal-year compensation rate, for enrollees it believed to be new
                      to MA. The regulations are clear that for 2009, plan sponsors may pay
                      the initial-year compensation rate only for enrollees new to Medicare.
                      For all other Medicare beneficiaries, including beneficiaries new to MA,
                      plan sponsors must pay sales agents the renewal-year compensation
                      rate until CMS notifies them otherwise.

                      This plan sponsor may have gained a competitive advantage over plan
                      sponsors that followed CMS’s regulations. Even if sales agents would
                      have eventually received the full initial-year compensation rate, they
                      received payment of the full initial-year compensation rate as much as
                      5 months earlier than they otherwise would have.

                      Plan sponsor representatives stated that they paid the initial-year
                      compensation rate for Medicare beneficiaries new to MA to remain
                      competitive with other plan sponsors in their area. According to plan
                      sponsor representatives, they hired a contractor to determine whether
                      each new enrollee was new to MA after learning that other MA plan
                      sponsors in their area were paying the initial-year compensation rate
                      for new MA enrollees. Compensation data from two selected plan
                      sponsors that marketed in the same area show that these plan sponsors
                      paid the renewal-year compensation rate. These data do not support
                      the claim that competitors paid the initial-year compensation rate.
                      Regardless of its competitors’ compensation practices, this plan sponsor
                      should have followed CMS’s compensation regulations for 2009.

                      A second selected plan sponsor paid in excess of its CMS-approved
                      compensation schedule by paying a sales agent an additional payment,
                      on top of his compensation rate, that it would have otherwise paid to the

    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   15
F   I N D I N G        S


                      FMO. This sales agent’s compensation totaled as much as $375 per
                      enrollment, exceeding the plan sponsor’s CMS-approved renewal-year
                      compensation rate of $200. A plan sponsor representative stated that in
                      2006, the FMO requested that the plan sponsor pay the sales agent the
                      additional amount because this sales agent was a top seller.

                      Payment of finders’ fees in excess of compensation. One plan sponsor
                      exceeded its CMS-approved compensation rate by paying finders’ fees.
                      This same plan sponsor also paid sales agents initial-year compensation
                      rates as described previously. The plan sponsor paid a $25 finders’ fee
                      for referrals in addition to the sales agents’ compensation. CMS
                      specifically noted that such fees must be deducted from the sales agents’
                      compensation. 41 The total compensation for an enrollment, including
                      finders’ fees, may not exceed the plan sponsor’s approved compensation
                      rate. Plan sponsor representatives reported that they intend to expand
                      this practice.
                      Three of the selected plan sponsors’ payments to FMOs may have created
                      inappropriate financial incentives to market their MA plans
                      Variations among plan sponsors' payment to FMOs raised concerns
                      about inappropriate financial incentives. 42 Three plan sponsors’
                      payment practices may have created inappropriate financial incentives
                      for FMOs to market their MA plans. Three of the five selected plan
                      sponsors paid what they deemed to be an “initial-year compensation
                      rate” to FMOs for 2009 enrollments, whereas two of the five selected
                      plan sponsors paid what they deemed to be a “renewal-year
                      compensation rate.” The compensation regulations intend that
                      Medicare beneficiaries be enrolled in MA plans that best meet their
                      health care needs. 43 If some plan sponsors paid an “initial-year
                      compensation rate” for 2009 enrollments and others did not, FMOs had
                      a financial incentive to encourage their sales agents to enroll Medicare
                      beneficiaries in plans that paid more rather than those that met
                      Medicare beneficiaries’ health care needs.




                        41 CMS, Memorandum: Payment of Referral Fees, February 24, 2009.
                        42 As previously stated, we did not determine whether these payments comply with CMS
                      regulations about FMO payments or the antikickback statute. Therefore, it is possible for
                      there to be additional issues associated with these payments that are not explored in this
                      study.
                        43 73 Fed. Reg. 54226, 54237 (Sept. 18, 2008).




    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   16
F   I N D I N G        S


                      The three selected plan sponsors’ compensation practices also may have
                      the potential for plan sponsors to gain a competitive advantage through
                      FMO compensation after 2009. If the three plan sponsors continue to
                      pay FMOs an “initial-year compensation rate” for each year of a 6-year
                      compensation cycle while the other two pay a “renewal-year
                      compensation rate,” the former will continue to have a competitive
                      advantage over the latter. Paying FMOs an “initial year compensation
                      rate” for each year of a 6-year compensation cycle would significantly
                      increase the total payment an FMO would receive. For example, if one
                      of these plan sponsors paid its “initial year compensation rate” during
                      the 5 renewal years, the plan sponsor would pay the FMO $1,050 over
                      the course of 6 years as compared to a plan sponsor that paid its
                      “renewal-year compensation rate” during the 5 renewal years for a total
                      of $615 over the 6 years.

Five of the six selected plan sponsors did not               Five of the six selected plan
                                                             sponsors used sales agents who
   ensure that all sales agents were qualified
                                                             were unqualified under CMS
                      under CMS’s regulations
                                                             regulations because they either
                                                             had not passed the marketing test
                      for 2009 or were not licensed at the time they took Medicare
                      beneficiaries’ enrollment applications. Two of the five selected plan
                      sponsors used sales agents who had not passed the marketing test and
                      who were unlicensed. In our random sample of 30 sales agents per plan
                      sponsor, there were 12 unqualified sales agents. While unqualified,
                      these 12 sales agents took 44 enrollment applications from Medicare
                      beneficiaries. Because we assessed only the qualifications of a sample of
                      sales agents, the 12 sales agents represent the minimum number of
                      unqualified sales agents from the 6 selected plan sponsors.
                      Four selected plan sponsors used sales agents who took enrollment
                      applications from Medicare beneficiaries before passing the marketing
                      test for 2009. These 4 plan sponsors had 10 sales agents submit
                      38 enrollment applications for Medicare beneficiaries before passing the
                      marketing test for 2009. On average, the 10 sales agents took
                      enrollment applications 17 days before passing the marketing test for
                      2009. These sales agents took enrollment applications as little as 1 day,
                      and as many as 63 days, before passing the marketing test for 2009.

                      In addition, three selected plan sponsors used unlicensed sales agents.
                      These plans sponsors used at least three sampled sales agents who
                      generated enrollments while unlicensed. One unlicensed sales agent

    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   17
F   I N D I N G        S


                      also took enrollment applications before passing the marketing test for
                      2009. These unlicensed sales agents took six enrollment applications
                      from Medicare beneficiaries. One of the sales agents took an enrollment
                      application 1 year and 8 months after his license had expired. Another
                      sales agent took four enrollment applications, on average, 25 days after
                      his license had expired. The other sales agent took one enrollment
                      application in a State for which we found no evidence that he had ever
                      been licensed.
                      In spite of their application review processes, four selected plan sponsors
                      did not identify enrollment applications taken by unqualified sales agents
                      Our selected plan sponsors all used an application review process to
                      ensure that only qualified sales agents submitted enrollment
                      applications. Under the application review process, plan sponsors
                      review each enrollment application to determine that a sales agent has
                      passed the annual marketing test and is licensed, among other things.

                      In spite of their application review processes, four plan sponsors did not
                      detect enrollment applications taken by unqualified sales agents.
                      Four selected plan sponsors did not detect 37 out of 43 enrollment
                      applications taken by unqualified sales agents in our sample. In these
                      cases, plan sponsors paid the sales agents for the enrollments. The
                      fifth plan sponsor detected the only enrollment application submitted by
                      an unqualified sales agent to the plan.
                      Two selected plan sponsors could not always identify the sales agent
                      responsible for enrollment applications
                      A plan sponsor’s application review processes cannot determine whether
                      sales agents are unqualified under CMS regulations if the plan sponsor
                      cannot identify the responsible sales agent. Two selected plan sponsors
                      could not identify the sales agents responsible for more than
                      6,000 enrollment applications out of approximately 112,000 enrollment
                      applications submitted for the 2009 annual enrollment periods.

                      One of these plan sponsors kept a record only of the responsible FMO
                      when they could not identify the responsible sales agent. Thus, when
                      we sampled sales agents, 6 of the 30 sales agents we selected were
                      actually FMOs. Because the plan sponsor could not identify the sales
                      agents for these enrollment applications, the plan sponsor could not
                      verify during its application review process that the sales agent was
                      tested or licensed.



    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   18
 F   I N D I N G        S


                       None of the selected plan sponsors contacted Medicare beneficiaries
                       enrolled by unqualified sales agents
                       Plan sponsors detected at least seven enrollment applications taken by
                       sales agents who either had not passed the marketing test for 2009 or
                       were not State licensed. In these cases, plan sponsors reported that
                       they did not pay the sales agents their compensation, but still processed
                       the Medicare beneficiaries’ enrollments.

                       Plan sponsors are required to have processes to confirm that Medicare
                       beneficiaries are aware of their enrollment in MA plans and that they
                       understand the MA plans’ rules. 44 Plan sponsors have discretion as to
                       the process or mechanism they put into place. For example, plan
                       sponsors may call new members or conduct marketing audits to ensure
                       that Medicare beneficiaries’ enrollments were based on complete and
                       accurate information and that MA plan rules were completely
                       explained. By calling to confirm whether Medicare beneficiaries’
                       enrollments were based on complete and accurate information, plan
                       sponsors could correct any incorrect or misleading information given to
                       Medicare beneficiaries by unqualified sales agents.

                       No plan sponsor that we reviewed had a policy to contact Medicare
                       beneficiaries enrolled by an unqualified sales agent to ensure that those
                       Medicare beneficiaries were aware of their enrollment or that they
                       understood the MA plan’s rules. During interviews, representatives
                       from several selected plan sponsors stated that they must enroll an
                       applicant unless the Medicare beneficiary is not eligible or the
                       enrollment application is incomplete. They stated that they do not have
                       enough time to follow up with Medicare beneficiaries whose enrollment
                       applications had been taken by unqualified sales agents because they
                       must submit the enrollment applications to CMS within 7 days of
                       receipt. 45

The number and topics of sales agent marketing             During the 2009 annual
        complaints remained unchanged after                enrollment periods, which began
                                                           after CMS implemented the sales
      implementation of sales agent marketing
                                                           agent marketing regulations,
                                   regulations
                                                           approximately 13,000 sales agent
                       marketing complaints were reported to CMS. Similarly, approximately


                         44 42 CFR § 422.2272(b).
                         45 MMCM, ch. 2, § 40.3.




     OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                       PLANS                                                                                                   19
F   I N D I N G        S


                      13,000 sales agent marketing complaints were reported to CMS during
                      the 2008 annual enrollment periods, before implementation of the sales
                      agent marketing regulations. For both years’ annual enrollment
                      periods, sales agent marketing complaints represented less than
                      10 percent of all complaints reported to CMS.
                      For both 2008 and 2009, sales agent marketing complaints referenced the
                      same three broad topics
                      Sales agent marketing complaints from the Complaint Tracking
                      Module’s “marketing misrepresentation” subcategory for both 2008 and
                      2009 referenced one or more of the same three broad topics:
                      (1) providing misleading information about plan benefits, (2) enrolling
                      Medicare beneficiaries without their consent, and (3) engaging in
                      aggressive sales tactics. Complaints reported to the Departments of
                      Insurance, MEDICs, and the six selected plan sponsors for the
                      2009 annual enrollment period also referenced these same three broad
                      topics.

                      Misleading information about plan benefits. For both the 2008 and
                      2009 annual enrollment periods, the majority of sales agent marketing
                      complaints reported to CMS referenced sales agents providing
                      misleading information. A typical complaint regarding a sales agent
                      providing misleading information alleged that the sales agent told the
                      Medicare beneficiary that an MA plan supplemented traditional
                      Medicare or otherwise misled the Medicare beneficiary about an MA
                      plan’s benefits. For example, one complaint in the Complaint Tracking
                      Module alleged that a sales agent was to enroll a Medicare beneficiary
                      in a plan that would supplement her health care coverage. The sales
                      agent stated that the new plan would not include prescription drug
                      coverage because the Medicare beneficiary already had prescription
                      drug coverage. After enrolling, the Medicare beneficiary learned that
                      the MA plan supplanted rather than supplemented her previous health
                      care and prescription drug coverage and did not cover the prescription
                      drugs she was taking.

                      Although the three broad topics did not change between 2008 and 2009,
                      the proportion of complaints to CMS alleging sales agents provided




    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   20
F   I N D I N G        S


                      misleading information decreased from 85 percent to 64 percent. This
                      difference is statistically significant at the 95-percent confidence level. 46
                      Enrolled without consent. Typically, complaints alleging that Medicare
                      beneficiaries were enrolled without their consent stated that the
                      Medicare beneficiaries were unaware of how they had been enrolled.
                      For example, one complaint in the Complaint Tracking Module stated
                      that a Medicare beneficiary asked the sales agent to return with more
                      information on the MA plan before submitting his enrollment
                      application. The sales agent did not return but the Medicare
                      beneficiary was enrolled in the MA plan.
                      Aggressive sales tactics. Generally, complaints of sales agents using
                      aggressive sales tactics alleged that sales agents inappropriately and
                      inaccurately discussed the Medicare beneficiaries’ current plans or
                      contacted Medicare beneficiaries at their residences. For example, one
                      complaint in the Complaint Tracking Module alleged that a sales agent
                      called the Medicare beneficiary claiming to be from Medicare. The sales
                      agent stated that the Medicare beneficiary’s current plan would no
                      longer provide Medicare coverage and that he would need to enroll in a
                      new plan. The Medicare beneficiary enrolled but called the
                      1-800-MEDICARE hotline to disenroll upon learning that this
                      information was false.




                         46 There was no statistically significant change between the 2008 and 2009 annual
                      enrollment periods for complaints of sales agents enrolling Medicare beneficiaries without
                      their consent and using aggressive sales tactics. Because Medicare beneficiaries could
                      reference one or more of the three broad topics in each complaint, a decrease in the
                      proportion of complaints referencing misleading information is independent of any change
                      in the proportion of complaints referencing the other two topics.



    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   21
   R E C O M M E N D A T I O N S

                  We reviewed six plan sponsors to determine whether MA plan sponsors
                  complied with regulations concerning the compensation and
                  qualifications of sales agents during the first plan year after these
                  regulations were implemented. Each of the six selected plan sponsors
                  did not follow at least one of the marketing regulations concerning sales
                  agent compensation and qualifications. Five selected plan sponsors’
                  compensation practices resulted in inappropriate financial incentives for
                  sales agents or may have created inappropriate financial incentives for
                  FMOs to market their MA plans. In addition, five of the six selected
                  plan sponsors did not ensure that all sales agents were qualified.
                  Finally, the number and topics of complaints regarding sales agents
                  reported to CMS did not change after CMS implemented the sales agent
                  marketing regulations.

                  Although, in some cases, the instances of plan sponsors’ noncompliance
                  may not have involved large numbers of sales agents or Medicare
                  beneficiaries, in other cases the vulnerabilities were systemic. In
                  particular, some of the compensation practices were standard operating
                  procedures for plan sponsors, although they did not follow CMS’s
                  compensation regulations. Any instances of noncompliance with sales
                  agent marketing regulations represent gaps in plan sponsor’s oversight
                  and a failure to fully implement the sales agent regulations.

                  While this study was limited to six plan sponsors, compliance with sales
                  agent marketing regulations is a larger concern. During the course of
                  CMS’s oversight activities, it identified 84 plan sponsors, including 5 of
                  the 6 plan sponsors in this review, as either having deficiencies in their
                  implementation of sales agent marketing regulations or noncompliance
                  with a sales agent marketing regulation.

                  In light of these concerns, we recommend that CMS:
                  Take appropriate actions regarding the specific instances of noncompliance
                  documented in this report
                  Each of the six selected plan sponsors made payments in excess of their
                  CMS-approved compensation schedules or enrolled beneficiaries
                  through unqualified sales agents. We have forwarded the specific
                  instances of noncompliance documented in this report to CMS for
                  followup.




OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                  PLANS                                                                                                   22
R   E C O        M M E N D A T           I O N          S


                      Audit plan sponsors and include an assessment of the vulnerabilities
                      identified in this report
                      In addition to following up on specific instances of noncompliance
                      identified in this report, CMS should oversee plan sponsors’ compliance
                      with sales agent marketing regulations through onsite compliance
                      audits. CMS staff conducted a compliance audit of one plan sponsor
                      during the summer of 2009 and indicated that they plan to conduct
                      more audits to ensure compliance with sales agent marketing
                      regulations. We encourage CMS to expand its oversight efforts through
                      compliance audits. We suggest that CMS incorporate an assessment of
                      the specific vulnerabilities identified in this report into its audit
                      protocol, such as the inappropriate payment of administrative fees and
                      finders’ fees. In addition, we encourage CMS to consider using
                      complaint rates from the Complaint Tracking Module to focus audits or
                      select plan sponsors for audits in future years.

                      CMS staff also indicated that as part of these audits, CMS will assess
                      plan sponsors’ oversight of sales agents. Our review indicates that plan
                      sponsors are not always able to identify enrollment applications from
                      unqualified sales agents. For this reason, we encourage CMS to review
                      the systems plan sponsors have in place to review enrollment
                      applications from sales agents.
                      Issue additional regulations concerning FMO payments
                      CMS regulations lack specificity concerning payments to FMOs. As a
                      result, plan sponsors may have created financial incentives that could
                      lead FMOs to encourage sales agents to enroll Medicare beneficiaries in
                      plans that do not meet their health care needs. Because FMOs, like
                      sales agents, may influence Medicare beneficiaries’ enrollment in MA
                      plans, CMS should issue additional regulations more clearly defining
                      how and how much FMOs should be paid for their services. In the
                      meantime, CMS should issue guidance to plan sponsors clarifying
                      appropriate payments to FMOs.
                      Issue regulations requiring plan sponsors to contact all new enrollees to
                      ensure that they understand plan rules
                      CMS regulations require sales agents to pass a marketing test on
                      Medicare regulations annually and be State licensed. Requiring sales
                      agents to pass the annual marketing test and to be State licensed
                      supports an environment where sales agents have the knowledge
                      necessary to help Medicare beneficiaries enroll in MA plans that meet


    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   23
R   E C O        M M E N D A T           I O N          S


                      their health care needs. Yet, no plan sponsor had a policy to contact
                      Medicare beneficiaries enrolled through unqualified sales agents.

                      In August 2009, CMS issued revised marketing guidance instructing
                      plan sponsors to contact all new enrollees to ensure that Medicare
                      beneficiaries understand plan rules. To protect Medicare beneficiaries
                      and ensure that they understand their new plans’ rules, we recommend
                      that CMS codify this guidance in regulations.

                      In addition, if a Medicare beneficiary’s enrollment is discovered to have
                      been inappropriate, the plan sponsor should also be required to alert
                      CMS. If necessary, CMS should grant a special enrollment period to
                      Medicare beneficiaries enrolled in plans that do not best meet their
                      health care needs.
                      Issue guidance clarifying that plan sponsors should terminate unlicensed
                      sales agents immediately upon discovery
                      Sales agent marketing regulations stipulate that plan sponsors must
                      employ licensed sales agents. Yet, we found instances in which
                      unlicensed sales agents enrolled Medicare beneficiaries in plans offered
                      by three of the six plan sponsors. CMS should issue guidance clarifying
                      that plan sponsors should immediately terminate any sales agent found
                      to be unlicensed while conducting marketing activities. In addition,
                      CMS should collect reports of terminated sales agents during its audits
                      of plan sponsors. Pursuant to its Memorandums of Understanding with
                      State Departments of Insurance, CMS should then notify the applicable
                      States of instances in which plan sponsors terminated unlicensed sales
                      agents.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with our first recommendation. CMS concurred in part
                      with the second recommendation, stating that it would conduct audits
                      or our oversight activities of plan sponsors posing the greatest risk to
                      Medicare beneficiaries. We agree with this approach and we have
                      amended the wording of the recommendation in the report. CMS did
                      not concur with our final three recommendations.

                      Specifically, CMS did not concur with our recommendation for more
                      specific regulations concerning FMO compensation payments. CMS
                      stated that regulations at 42 CFR § 422.2274(a)(1)(iv) apply to FMO
                      payments and therefore it is unnecessary to issue regulations

    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   24
R   E C O        M M E N D A T           I O N          S


                      concerning FMO payments. However, we found that the lack of
                      specificity in the compensation regulations allowed plan sponsors to
                      create financial incentives that may lead FMOs to encourage sales
                      agents to enroll Medicare beneficiaries in plans that pay more. We
                      continue to think that CMS should clearly define how and how much
                      FMOs should be paid for their services. However, we have broadened
                      our original recommendation to allow CMS latitude in designing the
                      best approach in regulating FMO payments.

                      CMS also did not concur with our recommendation to issue regulations
                      requiring plan sponsors to contact all new enrollees to ensure that they
                      understand plan rules. CMS responded that new regulations are
                      unnecessary because CMS has already used existing regulations as the
                      basis for new guidance which requires outbound enrollment verification
                      calls to make sure that newly enrolled Medicare beneficiaries
                      understand plan rules. If CMS guidance is sufficient to ensure that
                      plan sponsors conduct outbound enrollment verification calls, we agree
                      that it has met the intent of our recommendation.

                      However, we are concerned that guidance may not be sufficient to hold
                      plan sponsors accountable. CMS should reconsider formalizing the
                      guidance as regulations after monitoring plan sponsors’ implementation
                      of outbound enrollment verification calls. If CMS determines that
                      stronger oversight authority is necessary to ensure that outbound
                      enrollment verification calls are occurring, it should formalize the
                      guidance in regulations.

                      Finally, CMS did not concur with our recommendation to issue
                      regulations requiring plan sponsors to report unlicensed sales agents to
                      State Departments of Insurance. CMS responded that it does not have
                      the authority to require that plan sponsors report unlicensed sales
                      agents to State Departments of Insurance. CMS stated that the statute
                      gives CMS the authority to require plan sponsors to report only
                      terminations of licensed sales agents to States. We agree that the
                      statute mentions plan sponsors only reporting terminated sales agents.
                      However, we do not think that the statute limits CMS’s authority to
                      require the reporting of all terminated sales agents, both licensed and
                      unlicensed.

                      In light of CMS’s comments, we have modified our original
                      recommendation to reflect an alternative approach for ensuring that
                      plan sponsors report unlicensed sales agents to State Departments of
                      Insurance. We now recommend that CMS issue guidance requiring
    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   25
R   E C O        M M E N D A T           I O N          S


                      plan sponsors to terminate all unlicensed sales agents immediately
                      upon discovery. During its audits of plan sponsors, CMS should collect
                      reports of terminated sales agents and then make the names of
                      terminated unlicensed sales agents available to the appropriate States
                      pursuant to its Memorandums of Understanding with State
                      Departments of Insurance.

                      For the full text of CMS’s comments, see Appendix D.




    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   26
                    A P P E N D I X ~ A

                                           Medicare Improvements for Patients and Providers Act of 2008
                                           Provisions Concerning Sales Agents


  Table A-1: MIPPA* Provisions Concerning Sales Agent Marketing

                                                                                                                                                   Addressed in
                                      Associated Centers for Medicare & Medicaid Services** Guidance for Implementing the MIPPA
  MIPPA Provisions                                                                                                                                 2006 CMS
                                      Provisions
                                                                                                                                                   Guidance
                                      Plan sponsors should pay sales agents an initial-year compensation rate for a sale and a
  Compensation of sales
                                      renewal-year compensation rate for 5 subsequent years of enrollment. Compensation includes                                  x
  agents
                                      payments such as commissions, bonuses, gifts, prizes, awards, and finders’ fees.
                                      Plan sponsors must ensure that sales agents are trained and tested annually on Medicare rules
  Annual training and testing of
                                      and on plan details. Sales agents must receive a score of at least 85 percent after
  sales agents
                                      September 18, 2008.
                                      Plan sponsors must use State-licensed sales agents. Plan sponsors also must comply with
  Use of State-licensed sales
                                      State laws requiring plans to give States information about sales agents marketing their                                    x
  agents
                                      Medicare Advantage (MA) plans.
  Reporting terminated sales          Effective January 1, 2009, plan sponsors must report terminated sales agents, and the reasons
                                                                                                                                                                  x
  agents to States                    for termination, to the States in which the sales agents were contracted to sell insurance.
                                      Sales agents may not conduct certain types of solicitation, such as initiating marketing activities
  Unsolicited direct contacts
                                      with potential plan enrollees; calls to former enrollees; and approaching Medicare beneficiaries                            x
  with Medicare beneficiaries
                                      in common areas, unless requested.
  Scope of appointment
                                      Sales agents must document, either in writing or recorded by phone, the scope of their
  agreements with Medicare
                                      appointments with Medicare beneficiaries prior to the appointments.
  beneficiaries
  Cross-selling
  non-health-care-related             Sales agents may not market any non-health-care-related products during an MA sales activity.
  products
  Sales and marketing in health       Sales agents may not conduct sales activities in health care settings except in common areas.
  care settings and educational       Sales agents may not conduct sales activities, such as the distribution of marketing materials or                           x
  events                              plan enrollment applications, at educational events.
  Nominal value of gifts to           The nominal value of gifts is defined as an item worth $15 or less, based on the retail purchase
                                                                                                                                                                  x
  Medicare beneficiaries              price of the item.
  Providing meals to Medicare         Sales agents may not provide or subsidize meals. Sales agents are allowed to provide light
  beneficiaries                       snacks and refreshments.
Sources: Office of Inspector General analysis of: (1) MIPPA; (2) CMS marketing guidance issued on September 15, 2008; and (3) Medicare Marketing Guidelines for
MA Plans, Medicare Advantage Prescription Drug Plans, Prescription Drug Plans, and 1876 Cost Plans revised on July 25, 2006.

*Medicare Improvements for Patients and Providers Act of 2008 (MIPPA).

**Centers for Medicare & Medicaid Services (CMS).




               O EI -05 -09 -0 0070        BENEFICIARIES REMAIN VULNERABLE    TO   SALES AGENTS’ MARKETING   OF   MEDICARE ADVANTAGE   PLANS     27
             A P P E N D I X ~ B


DETAILED METHODOLOGY
                           Examining Sales Agents’ Compensation and Qualifications
                           To select a purposive sample of plan sponsors, we first created a
                           sampling frame targeting Medicare Advantage (MA) plan sponsors that
                           used sales agents to market to Medicare beneficiaries. First, we
                           identified all plan sponsors offering plans for 2009 using 2009 plan-level
                           enrollment data from the Centers for Medicare & Medicaid Services
                           (CMS). Next, we identified those plan sponsors that offered MA plans.
                           From these plan sponsors, we selected those that CMS identified as
                           using sales agents. We then selected only plan sponsors with more than
                           100 enrollees.

                           Finally, we selected plan sponsors that received at least one complaint
                           in the Complaint Tracking Module “marketing” category between
                           October 1, 2008, and February 28, 2009. We selected plan sponsors
                           with high rates of marketing complaints to test whether they may have
                           also had underlying marketing issues. We identified 73 plan sponsors
                           for our sampling frame. Table B-1 provides the number of plan
                           sponsors that met each step of our sampling frame criteria.

                              Table B-1: Sampling Frame of MA Plan Sponsors for
                              2009

                                                                                                   Number of Plan
                              Sampling Criteria for Plan Sponsors
                                                                                                       Sponsors


                              Plan sponsor for Medicare                                                        281


                              Offered MA plans                                                                 266


                              Marketed through sales agents                                                    109


                              Had more than 100 enrollees                                                      106

                              Had at least one complaint in Complaint Tracking
                              Module                                                                               73
                            Source: Office of Inspector General (OIG) analysis of CMS plan-level enrollment data
                            and Complaint Tracking Module data, 2009.



                           Purposive sample of plan sponsors. For each of the 73 plan sponsors, we
                           calculated the complaint rate using complaints in the Complaint
                           Tracking Module’s “marketing” category between October 1, 2008, and
                           February 28, 2009. We used the broader “marketing” category because
                           we found sales agent marketing complaints in the “marketing” category


    O EI -05 -09 -0 0070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   MEDICARE ADVANTAGE     PLANS   28
A P P       E N D I X            ~        B


                        and not only in the “marketing misrepresentation” subcategory. We
                        found 6,498 marketing complaints in the “marketing” category during
                        this period, only some of which identified plans or plan sponsors. Of
                        these complaints, 2,781 were associated with the 73 plan sponsors from
                        our sampling frame. Using the 2,781 complaints, we then calculated
                        the complaint rates per 1,000 Medicare enrollees for the 73 plan
                        sponsors within our sampling frame.

                        To ensure the representation of different-sized plan sponsors in our
                        selection, we stratified the 73 plan sponsors by small, medium, and
                        large enrollment. We determined the total enrollment for each plan
                        sponsor using 2009 CMS plan-level enrollment data available on CMS’s
                        Web site. From each of the three strata, we selected the plan sponsors
                        with the highest complaint rates. We selected one plan sponsor from a
                        stratum of plan sponsors with small enrollment, two from a stratum
                        with medium enrollment, and three from a stratum with large
                        enrollment. 47 Table B-2 provides the number of plan sponsors selected
                        for each of the three strata as well as enrollment ranges.

                         Table B-2: Strata of Plan Sponsors

                                                                      Number of             Overall
                                                                                                                         Range of
                                                                   Selected Plan     Number of Plan
                         Plan Sponsor Size                                                                         Enrollment per
                                                                   Sponsors per       Sponsors per
                                                                                                                          Stratum
                                                                        Stratum            Stratum


                         Small enrollment                                       1                      24           1,500–15,999


                         Medium enrollment                                      2                      25          16,000–63,999


                         Large enrollment                                       3                      24     64,000–6,000,000
                        Source: OIG analysis of CMS plan-level enrollment data and Complaint Tracking Module data, 2009.



                        Random sample of sales agents. For each selected plan sponsor, we
                        requested a list of sales agents who enrolled at least one Medicare



                           47 We excluded the two plan sponsors with the highest complaint rates in the stratum of
                        small plan sponsors. The plan sponsor with the highest complaint rate in this stratum did
                        not receive applications for enrollment from any of its sales agents for the 2009 plan year
                        enrollment period. The second plan sponsor was owned by another plan sponsor in our
                        sample. In addition, we excluded one plan sponsor with the second highest complaint rate
                        from the large enrollment strata because it was under Federal investigation at the time of
                        our data collection.



 O EI -05 -09 -0 0070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   MEDICARE ADVANTAGE      PLANS    29
A   P   P E N D       I X      ~      B


                      beneficiary in an MA plan for 2009. From this list, we selected a
                      random sample of 30 sales agents for that plan sponsor.

                      Two of the selected plan sponsors could identify only the field marketing
                      organization (FMO), rather than the sales agent, in some instances.
                      When we requested a list of sales agents who enrolled at least one
                      Medicare beneficiary, the lists included FMOs as well as individual
                      sales agents. As a result, for 1 selected plan sponsor, our random
                      sample resulted in a selection of 6 FMOs and 24 sales agents. We
                      identified 14 sales agents for the 6 FMOs from enrollment applications
                      and obtained compensation, testing, and licensure data for the 14 sales
                      agents. This resulted in a sample of 38 sales agents for this plan
                      sponsor.

                      Data collection. To gather data, we conducted site visits to each selected
                      plan sponsor. From each selected plan sponsor, we requested the
                      following information 48 or 72 hours before the site visit: (1) copies of
                      all 2009 MA enrollment applications generated by the sampled sales
                      agents; (2) documentation of payments made to the sampled sales
                      agents and to other individuals or entities associated with enrollments
                      generated by the sampled sales agents (i.e., commissions, bonuses, gifts,
                      prizes, awards, and finders’ fees) from January 1, 2009, through our site
                      visits in April 2009; and (3) testing dates and test scores for the sampled
                      sales agents for 2009.

                      Data verification. During the site visits, we verified the accuracy and
                      completeness of all requested data. To validate the data for each of the
                      sampled sales agents, we compared the data the plan sponsors provided
                      us to those data in their data systems.

                      We were able to validate the compensation data we collected for five of
                      the six selected plan sponsors. For one plan sponsor, compensation data
                      were unverifiable because its systems for collecting compensation data
                      had no search function across the various systems that could link all
                      payments for a particular enrollment application. Our analysis for this
                      plan sponsor is based on the unverified data provided by the plan
                      sponsor.

                      Structured interviews. In addition to collecting and verifying data, we
                      conducted structured interviews with each of the six selected plan
                      sponsors. We asked plan sponsor representatives about their oversight
                      activities concerning sales agent marketing. We also asked how they
                      had implemented the sales agent marketing provisions detailed in the

    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   30
A   P   P E N D       I X      ~      B


                      Medicare Improvements for Patients and Providers Act of 2008. We
                      collected documentation, such as policies, procedures, and
                      communications with sales agents, to verify their statements.
                      Medicare Beneficiary Complaints Regarding Sales Agent Marketing
                      The Complaint Tracking Module is a central repository of complaints
                      related to MA and prescription drug coverage received in the CMS
                      regional office or central office or through 1-800-MEDICARE. For the
                      2008 and 2009 annual enrollment periods, we analyzed complaints
                      concerning MA plan sponsors that CMS received from October through
                      April of the next year. We chose these periods because they capture
                      complaints when marketing for the annual enrollment periods begins in
                      October through 1 month after the marketing period ends in March.
                      Our collection period extends 1 month beyond the end of the annual
                      enrollment periods because Medicare beneficiaries may not realize that
                      they are enrolled in inappropriate plans until after they have attempted
                      to access benefits. According to our analysis of Complaint Tracking
                      Module data since 2005, the majority of marketing complaints were
                      reported to CMS between October and April of the next year.

                      Number of sales agent marketing complaints. To identify the number of
                      sales agents marketing complaints to CMS for the 2008 and 2009 annual
                      enrollment periods, we selected 2 stratified random samples of
                      400 complaint records from the Complaint Tracking Module. We stratified
                      the complaint records by those that are categorized as “marketing
                      misrepresentation” and those that are not. We selected 100 complaint
                      records from the “marketing misrepresentation” stratum and
                      300 complaints from the other stratum for each period. We sampled
                      complaints from two strata because CMS staff expressed concerns that not
                      all sales agent complaints were correctly categorized. Our sampling
                      strategy enabled us to estimate the percentage of sales agent complaints
                      for each time period with expected absolute precision of +/- 6 percent at the
                      95-percent confidence level.
                      To verify whether a complaint in the Complaint Tracking Module was a
                      sales agent marketing complaint, we reviewed all sampled complaints.
                      If a complaint was placed in the “marketing misrepresentation”
                      subcategory, we considered it a sales agent marketing complaint as long
                      as there was not information to the contrary. If the complaint was not
                      categorized as “marketing misrepresentation” by CMS, we considered it
                      a sales agent marketing complaint if the complaint summary included a
                      direct or indirect reference to certain keywords and there was no

    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   31
APPENDIX                                 B


                     contradictory evidence. The keywords we used included "agent",
                     "broker", "mislead", or "misrepresent". We had three separate reviewers
                     confirm and agree that a complaint should be categorized as sales agent
                     marketing. Some complaints lacked enough detail to understand the
                     situation being reported. When this was the case, we relied on CMS's
                     classification of each complaint. Table B-3 provides for each stratum
                     the overall number of complaints in the Complaint Tracking Module,
                     the number of complaints sampled, and the number of verified sales
                     agent complaints.

                    Table B-3: Strata of Complaints

                                                                           Overall          Number of        Number of
                                  Complaint Tracking Module
                    Year                                                 Number of           Sampled           Verified
                                                Subcategory
                                                                        Complaints         Complaints       Complaints


                                 Marketing misrepresentation                   7,219                100              85
                    2008

                                 Other                                      183,226                 300              11


                                 Marketing misrepresentation                  11,146                100              89
                    2009

                                 Other                                      152,193                 300               6
                  Source: OIG analysis of CMS plan-level enrollment data and Complaint Tracking Module data, 2009.




                     Nature of sales agent marketing complaints. To determine the nature of
                     complaints, we read each verified complaint in the "marketing
                     misrepresentation" category for common topics. We then organized the
                     common topics into broader themes that were apparent in their
                     complaint descriptions. We also read complaints related to each
                     broader theme to determine what these complaints typically alleged.
                     Finally, we selected examples of complaints to provide insight into the
                     details of sales agent marketing. We compared the proportion of
                     complaints for each theme between the 2008 and 2009 annual
                     enrollment periods. We were able to produce yearly estimates of
                     proportions of complaints for the different complaint types with absolute
                     precisions of +/- 6 percent at the 95-percent confidence level.
                     We also collected complaint data from Medicare Drug Integrity
                     Contractors (MEDIC), the Departments ofInsurance, and the
                     six selected plan sponsors to understand how the nature of complaints
                     they received compared to those CMS received. From the two MEDICs,
                     we requested complaints related to sales agents received between

OEI-05·09-00070      BENEFICIARIES REMAIN VULNERABLE TO SALES AGENTS' MARKETING OF MEDICARE ADVANTAGE
                     PLANS                                                                                                32
A   P   P E N D       I X      ~      B


                      October 1, 2008, and March 31, 2009. We chose these periods to match
                      the periods from our analysis of Complaint Tracking Module complaints
                      as closely as possible while remaining timely with our analysis. To
                      avoid duplication of complaints that MEDICs entered in the Complaint
                      Tracking Module, we requested only complaints that were not entered
                      in the Complaint Tracking Module.

                      In addition to collecting data from MEDICs, we surveyed the
                      Departments of Insurance for each State and U.S. territory to determine
                      the types of sales agents marketing complaints they received.
                      Fifty-one of the fifty-six Departments of Insurance surveyed responded.
                      We had identified complaint themes from our Complaint Tracking
                      Module analysis and asked whether the Departments of Insurance had
                      received these types of complaints. We also gave the Departments of
                      Insurance the opportunity to comment on other types of complaints they
                      had received.

                      Finally, we requested a record of all complaints received by the selected
                      plan sponsors. We requested complaints related to sales agents
                      received between October 1, 2008, and February 28, 2009, shortly before
                      we contacted the plan sponsors. We read each complaint to determine
                      whether it concerned sales agent marketing and common topics. We
                      then organized the common topics into broader themes.




    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   33
                         A P P E N D I X ~ C

                                                 Estimates and Confidence Intervals for Samples From the Centers
                                                 for Medicare & Medicaid Services’ Complaint Tracking Module

                   Table C-1: Estimates of the Number of Sales Agent Marketing Complaints Reported
                   in the Complaint Tracking Module for the 2008 and 2009 Annual Enrollment Periods
                                                                         Number of Projected Sales
                                                                                                                                      95-Percent
                   Enrollment Period               Sample Size                    Agent Marketing
                                                                                                                              Confidence Interval
                                                                                       Complaints

                   2008                                         400                              12,854                                  8,910–16,799

                   2009                                         400                              12,964                                10,448–15,479
                 Source: Office of Inspector General (OIG) analysis of Complaint Tracking Module, 2009.



 Table C-2: Types of Sales Agent Marketing Complaints Categorized as “Marketing Misrepresentation” for
 the 2008 and 2009 Annual Enrollment Periods
                                                                                                                                                                 95-Percent
                                                                                              Point             95-Percent                 Point
                                              Sample Size         Sample Size                                                                                    Confidence
                                                                                       Estimate for            Confidence           Estimate for
 Types of Sales Agent                            for 2008            for 2009                                                                                    Interval for
                                                                                              2008        Interval for 2008                2009
 Marketing Complaints                          Enrollment          Enrollment                                                                                           2009
                                                                                        Enrollment              Enrollment           Enrollment
                                                 Periods*            Periods*                                                                                    Enrollment
                                                                                           Periods                  Periods             Periods
                                                                                                                                                                     Periods

 Providing misleading information                          85                    89            84.7%         75.4%–90.9%                      64.0%             53.5%–73.4%

 Enrolling without consent                                 85                    89            14.1%          8.2%–23.3%                      24.7%             16.8%–34.8%

 Engaging in aggressive tactics                            85                    89            14.1%          8.2%–23.3%                      21.3%             14.0%–31.1%
Source: OIG analysis of Complaint Tracking Module, 2009.
*Sample sizes are based on the number of verified sales agent marketing complaints within the “marketing misrepresentation” strata only.




                 Table C-3: Estimates for Comparisons of Types of Sales Agent Marketing Complaints
                 Categorized as “Marketing Misrepresentation” for the 2008 and 2009 Annual
                 Enrollment Periods
                                                            Sample Size
                                                                                   Point Estimate For
                                                            for 2008 and                                          95-Percent
                 Types of Sales Agent                                             Difference Between
                                                                    2009                                          Confidence                        P-Value
                 Marketing Complaints                                                   2008 and 2009
                                                              Enrollment                                             Interval
                                                                                  Enrollment Periods
                                                                 Periods
                 Providing misleading
                 information                                           174                       20.7%           8.0%–33.3%                            .0015*


                 Enrolling without consent                             174                       10.6%           -1.1%–22.3%                            .0752


                 Engaging in aggressive tactics                        174                        7.2%           -4.1%–18.6%                            .2103
                Source: OIG analysis of Complaint Tracking Module, 2009.
                *Statistically significant at the 95-percent confidence level.




                    OEI-05-09-00070              BENEFICIARIES REMAIN VULNERABLE         TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                                                 PLANS                                                                                                            34
      A P PEN D                                 x         D


       Agency Comments




                            DEPARTMENT OF HEALTH & HUMAN SERVICES                                 Canters lor Medicare & Medicaid Services

                                                                  RECf.\\1 F.8                    Administrator
                                                                                                  Washington. DC 20201
                                                                20090EC '8 PM 3: 18
                                                                OI'l'iCi;G~~t\~ :~)~C TC

                         DATE:           DEC 1 7 2009
                         TO: 	          Daniel R. Levinson
                                        Inspector General

                         .FROM: 	      Charlene Frizzera /S/
                                       Acting Administrator

                         SUBJECT: 	 Office ofInspector General (OIG) Draft Report: "Beneficiaries Remain
                                    Vulnerable to Sales Agents' Marketing of Medicare Advantage Plans," (OEI-05­
                                    09-00070)


                         Thank you for the opportunity to comment on the OIG Report: "Beneficiaries Remain
                         Vulnerable to Sales Agents' Marketing of Medicare Advantage Plans." The Centers for
                         Medicare & Medicaid Services (CMS) recognizes the importance of taking the appropriate
                         compliance and enforcement actions against Medicare Advantage (MA) sales agents who
                         inappropriately market to Medicare beneficiaries.

                     The CMS has continued to take steps to ensure that beneficiaries are protected from deceptive
                     and inappropriate actions taken by sales agents and brokers who sell MA plans. CMS takes
                     immediate action when complaints of inappropriate marketing are reported. We have effectuated
                     a comprehensive marketing surveillance initiative designed to detect and respond to incidents of
                     inappropriate marketing. This includes secret shopping of public sales events and individual
                     sales appointments conducted by MA organizations, review of marketing advertisements for
                     inappropriate content and other surveillance activities. CMS takes immediate action when
                     marketing violations are uncovered, including issuance of compliance letters requiring MA
                     organizations and Prescription Drug Plan spOLL~ors to implement corrective measures, which has
                     the direct impact of protecting Medicare beneficiaries.

                     In llddition, eMS issued regulations in l&te 2008 to establish limits on commission rates paid to
                     agents seIling both MA and Prescription Drug plans in order to prevent beneficiaries moving
                     inappropriately between plans. Earlier this year, we issued additional guidance to strengthen
                     those rules that established fair market value limits for initial and renewal compensation and
                     provided further guidance on payment of referral fees to ensure that compensation amounts paid
                     to agents do not exceed the fair market value limits identifiep by CMS. Given the new MIPP A
                     marketing requirements were released late in the contract year CMS expeets to see
                     improvements as organizations implement additional internal controls and improve oversight to
                     ensure compliance with these requirements.




oEI -05 -09 -0 0 0 7 0           BENEFICIARIES REMAIN VULNERABLE TO SALES AGENTS' MARKETING OF MEDICARE ADVANTAGE         PLANS         35
A   P   P E N D       I X      ~      D




    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   36
A   P   P E N D       I X      ~      D




    OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                      PLANS                                                                                                   37
   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office, and Thomas Komaniecki, Deputy Regional Inspector
                  General.

                  Mark Stiglitz served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Chicago regional
                  office who contributed include Mara Werner, Margarita Rodriguez,
                  Erica Fleischer, Brooke Isham, Melissa Baker, Laura Kordish, and Beth
                  McDowell; central office staff who contributed include Rita Wurm and
                  Kevin Farber.




OEI-05-09-00070   BENEFICIARIES REMAIN VULNERABLE   TO   SALES AGENTS’ MARKETING   OF   M E D I C A R E A D VA N TA G E
                  PLANS                                                                                                   38
               Office of Inspector General
                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
